CLEMENTE |
MUELLER

POST OFFICE BOX 1296
MORRISTOWN, NEW JERSEY 07962-1296

 

FAX: 973.455.8118

New Jersey | New York | Pennsylvania
‘ or MESSENGER-EXPRESS DELIVERIES
ATTORNEYS AT LAW 222 RIDGEDALE AVENUE

 

NEW YORK OFFICE
43 WESTABRD STREET

 

SULTE 156
NEW YORK,NY I 24
TEL: 212.425 S608

PENNSYLVANIA OFFICE
2VETERANS SOUART

 

 

A PROFESSIONAL CORPORATION j 2ND FLOOR
WWW.CM-LEGAL.COM CEDAR KNOLLS, NEW JERSEY 07927

 

William F, Mueller, Member
NJNY & PA Bars
wmueller@cm-legal.com

May 6, 2021

VIA FEDEX

United States Supreme Court
ATTN: Clerk’s Office

1 First Street, NE
Washington, DC 20543

RE: George Ponik, et al. v. Estate of Peter Lee Williams, Et Al.

Our File No.: 3.01913
Case No.: 20-1172
Dear Sir/Madam:

This office represents all Appellee-Respondents in connection with this matter. I am in the
process of preparing and submitting an application for admission to the bar of this Court, however, I
am not yet admitted.

We are in receipt of this Court's request for a response to the Petition for Certiorari, which is
presently due May 21, 2021. Please accept this letter as a request for a thirty (30) day extension of
time to respond. The parties have agreed to a settlement in principle, which requires an approval at a
public meeting under New Jersey law. In the event the extension is granted, we anticipate that the
Petition for Certiorari will be withdrawn upon approval. If the settlement is not approved, we will
notify this Court, and respond to the Petition for Certiorari within the time allotted after the extension.

I have conferred with our adversaries, who have given consent to this extension, and do not
intend to oppose. Thank you for your consideration of this request.

Respectfu Fours,
CLEMENTE MUELLER, P.A.
a MY ] 7g

L,

William F. Mueller

 

WEM:sm

CG: Louis Cappelli, Esq. RECEIVED

MAY 10 2024

@FFICE OF THE CLERI
SUPREME Cc T, os

   
     
